No. 20-________

In the Supreme Court of the United States
STATE OF LOUISIANA,
Petitioner
v.
AARON HAUSER,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Louisiana

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the accompanying
Petition for Writ of Certiorari contains 5,050 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 5, 2021.
/s/ Elizabeth Baker Murrill
ELIZABETH BAKER MURRILL

